   Department of Health and Human Services
                      OFFICE OF 

                 INSPECTOR GENERAL 





 KENTUCKY DID NOT PAY SOME LINE 

   ITEMS ON MEDICAID CLAIMS IN 

  ACCORDANCE WITH ITS MEDICAID 

NATIONAL CORRECT CODING INITLt\.TIVE 

                     METHODOLOGIES 

     Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                              Public.Af[airs@oig. hhs. gov. 





                                                       Lori S. Pilcher
                                                  Regional Inspector General

                                                         February 2014
                                                         A-04-13-06166
                        Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission of the Office oflnspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS , either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations
The Office oflnvestigations (01) conducts criminal, civil, and administrative investigations offraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry conceming the anti-kickback statute and other OIG enforcement
authorities.
                         1Votices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters .
                                      EXECUTIVE SUMMARY


 Kentucky did not pay some line items in accordance with its Medicaid National Correct
 Coding Initiative methodologies on claims that hospitals submitted. As a result,
 Kentucky made erroneous payments to providers totaling approximately $84,000
 (Federal share).

WHY WE DID THIS REVIEW

Since 1996, the National Correct Coding Initiative (NCCI) methodologies have saved Medicare
millions of dollars in expenditures. Federal law mandates that States incorporate compatible
NCCI methodologies into their Medicaid program systems for claims filed on or after October 1,
2010. Kentucky Department of Medicaid Services (State agency) implemented the Medicaid-
compatible NCCI payment methodologies (Medicaid NCCI) for claims filed on or after
December 16, 2010, and did not report any incompatibilities between Kentucky’s Medicaid
program and the Medicaid NCCI. We performed preliminary data matches that indicated that
the Medicaid NCCI may not have been properly implemented.

The objective of our audit was to determine whether the State agency paid line items in
accordance with its Medicaid NCCI methodologies on claims that hospitals submitted from
December 16, 2010, through December 31, 2012.

BACKGROUND

In January 1996, the Centers for Medicare & Medicaid Services (CMS) implemented the NCCI,
a program that consists of coding policies and automatic computer edits. The NCCI’s purpose is
to promote correct Healthcare Common Procedure Coding System (HCPCS) coding of health
care services provided to Medicare beneficiaries and to prevent Medicare payment for
improperly coded services. The NCCI edits identify HCPCS codes for services that, under
Medicare coding and payment policy, ordinarily should not be billed for the same patient on the
same day (HCPCS code pairs).

On September 1, 2010, CMS notified States that the Medicare NCCI methodologies were
compatible with Medicaid. CMS therefore required the States to incorporate the NCCI edit
methodologies into their Medicaid claims processing systems and to begin editing claims filed
on or after October 1, 2010.

In Kentucky, the State agency administers the Medicaid program. The State agency fully
implemented the Medicaid NCCI in the Kentucky Medicaid Management Information System
(KYMMIS), a computerized payment and information reporting system effective December 16,
2010. (CMS had given an extension to the October 1st deadline. The State agency implemented
the first phase of the Medicaid NCCI on October 1, 2010.) The State agency contracted with its
fiscal agent to implement the Medicaid NCCI.




Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                              i
WHAT WE FOUND

The State agency did not pay some line items in accordance with its Medicaid NCCI
methodologies on claims hospitals submitted from December 16, 2010, through December 31,
2012. Overall, the State agency satisfied Federal and State requirements by implementing the
Medicaid NCCI into KYMMIS on schedule. However, the Medicaid NCCI edits did not prevent
erroneous payments. Of the 110 sampled line items, the State agency paid 102 in accordance
with the Medicaid NCCI. For the remaining 8, the Medicaid NCCI edits did not prevent the
payment for the component HCPCS code resulting in erroneous payments totaling $1,853
($1,439 Federal Share).

Using our sample results, we estimated that the State agency made erroneous payments to
providers totaling $109,309 ($83,569 Federal share).

The erroneous payments occurred because the fiscal agent did not ensure that Medicaid NCCI
edits incorporated in KYMMIS approved only comprehensive HCPCS codes when they were
reported with component codes (already included in the comprehensive code) for the same date
of service. The State agency acknowledged that the Medicaid NCCI edits did not work as
intended and that it paid line items in error.

WHAT WE RECOMMEND

We recommend that the State agency:

    •	 refund erroneous payments totaling $83,569 to the Federal Government and

    •	 ensure that the Medicaid NCCI edits were properly incorporated and are functioning as
       intended in the KYMMIS.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency disagreed with our first
recommendation to refund $83,569 to the Federal Government but concurred with our second
recommendation. The State agency acknowledged that four of the eight errors identified had
NCCI edits applied incorrectly. For the remaining four errors, the State agency said that NCCI
methodologies do not apply to these claims because, according to section 5.2 of the October 30,
2013, Center for Medicaid and CHIP Services Technical Guidance on State Implementation of
the Medicaid National Correct Coding Initiative Methodologies, claims that are paid on a flat
encounter/visit fee are not applicable to the NCCI methodologies. The State agency also said
that the report did not provide the logic behind the claims sampling and how the overpayment
amount was estimated, so it could not concur with the amount to be refunded.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The State agency did not provide sufficient documentation to
support that the line items in question should have been paid based on a flat encounter/visit fee
schedule rather than a fee schedule based on the HCPCS. In fact, the fiscal agent agreed that the



Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                              ii
line items should not have been paid because of applicable NCCI edits. During the entrance
conference on May 14, 2013, and during the exit conference on May 23, 2013, we explained to
the State agency our sampling methodology. As specified in both the body of the report and
Appendix B, the logic of selecting our sample was random, and the estimate was calculated
using the Office of Inspector General, Office of Audit Services, statistical software. On the basis
of our audit results, we continue to recommend that the State agency refund $83,569 to the
Federal Government.




Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                             iii
                                                     TABLE OF CONTENTS




INTRODUCTION ..................................................................................................................... 1


           Why We Did This Review ............................................................................................. 1


           Objective ........................................................................................................................ 1


           Background .................................................................................................................... 1

                 Medicaid Program .............................................................................................. 1

                 National Correct Coding Initiative..................................................................... 2

                 Medicaid National Correct Coding Initiative Methodologies ........................... 2

                 Kentucky’s Implementation of Medicaid National Correct Coding

                   Initiative Methodologies ................................................................................. 3


           How We Conducted This Review.................................................................................. 3


FINDINGS ................................................................................................................................. 4


           The State Agency Paid Some Line Items That Were Not in Accordance With

            Medicaid National Correct Coding Initiative Methodologies ................................... 4


           Estimate of Incorrect Payments .................................................................................... 6


RECOMMENDATIONS ........................................................................................................... 6


STATE AGENCY COMMENTS AND 

  OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6


           State Agency Comments ................................................................................................ 6


           Office of Inspector General Response ........................................................................... 6


APPENDIXES


           A: Audit Scope and Methodology ................................................................................ 8


           B: Statistical Sampling Methodology ........................................................................... 10


           C: Sample Results and Estimates .................................................................................. 12


           D: Federal and State Requirements............................................................................... 13


           E: State Agency Comments .......................................................................................... 14




Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                                                               iv
                                            INTRODUCTION


WHY WE DID THIS REVIEW

Since 1996, the National Correct Coding Initiative (NCCI) methodologies which include policies
for coding Medicare services and automatic computer edits to review those coded services, have
saved Medicare millions of dollars in expenditures. Federal law mandates that States incorporate
compatible NCCI methodologies into their Medicaid program systems for claims filed on or after
October 1, 2010. 1 The Kentucky Department of Medicaid Services (State agency) implemented
the Medicaid-compatible NCCI payment methodologies (Medicaid NCCI) for claims filed on or
after December 16, 2010, and did not report any incompatibilities between Kentucky’s Medicaid
program and Medicaid NCCI. Before initiating this review, we performed preliminary data
matches, which indicated that Medicaid NCCI may not have been properly implemented.

OBJECTIVE

Our objective was to determine whether the State agency paid line items in accordance with its
Medicaid NCCI methodologies on claims that hospitals submitted from December 16, 2010,
through December 31, 2012.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. The Federal Government pays its share of a State’s medical
assistance costs (Federal share) under Medicaid on the basis of the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income as
calculated by a defined formula (42 CFR § 433.10).




1
  Because of the technical and financial challenges of updating State Medicaid Management Information Systems
(MMISs), CMS provided flexibility in the implementation deadline and continued to work with States beyond the
statutory date. (See page 14 of the U.S. Department of Health and Human Services, Report to Congress on
Implementation of the NCCI in the Medicaid Program as Required by Section 6507 of the Affordable Care Act
(March 1, 2011).)



Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                            1
National Correct Coding Initiative

In January 1996, CMS implemented the NCCI, a program that consists of coding policies and
automatic computer edits. The NCCI’s purpose is to promote correct Healthcare Common
Procedure Coding System (HCPCS) 2 coding of health care services provided to Medicare
beneficiaries and to prevent Medicare payment for improperly coded services. The NCCI
contains automated edits that identify claim submissions in which a provider bills more than one
service for the same beneficiary for the same date of service. The NCCI edits then identify
HCPCS code pairs for services that, under Medicare coding and payment policy, ordinarily
should not be billed for the same patient on the same day. 3

CMS was required to determine which Medicare NCCI methodologies were compatible with
Medicaid and to notify States of the methodologies to be incorporated into their MMIS. States
had to apply those Medicaid-compatible methodologies for claims filed on or after October 1,
2010 (section1903(r)(1)(B)(iv), as amended). On September 1, 2010, CMS issued a State
Medicaid Director letter (#10-017) notifying States of five Medicaid NCCI methodologies and
providing files 4 and instructions on how to incorporate them into their MMISs.

Medicaid National Correct Coding Initiative Methodologies

The Medicaid NCCI methodologies have four components: (1) a set of edits, (2) a set of
definitions of types of claims subject to the edits, (3) a set of claim-adjudication rules for
applying the edits, and (4) a set of rules for addressing provider and supplier appeals of payments
denied because of the edits.

One type of Medicaid NCCI edit is called a “comprehensive and component” edit. 5 This type of
edit identifies HCPCS code pairs that should not be billed together because one code (the
component code) identifies a service inherently included in the other (the comprehensive code).
If a provider bills for a comprehensive service together with a component service for the same
beneficiary and on the same date of service, the State should ordinarily pay only the service with


2
    Providers report procedures and services performed on Medicare beneficiaries using HCPCS codes.
3
  The NCCI is based on coding conventions defined in the American Medical Association’s Current Procedural
Terminology Manual, national and local Medicare policies and edits, coding guidelines developed by National
societies, standard medical and surgical practice, and current coding practice. NCCI edit tables are derived from
these reference sources. The NCCI contains two types of prepayment edits tables: Column 1/Column 2 Correct
Coding Edits tables (edits tables) and the Mutually Exclusive Edits table. We only applied the Column 1/Column 2
edits tables during this audit. (We refer to these as comprehensive/component edits.) The Column 1/Column 2 edits
tables contain the following six columns: (1) the payable code, (2) the code that is not payable when reported with
the column 1 code, (3) the edit existence date, (4) the edit effective date, (5) the edit deletion date, and (6) whether
the use of a modifier is permitted. NCCI edits tables are updated quarterly.
4
 The Medicaid NCCI files contain the different edits tables that State Medicaid programs must incorporate into their
MMIS.
5
    This type of edit is also referred to as “procedure-to-procedure” and “column 1/column 2.”



Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                                  2
the comprehensive code. 6 Only under certain circumstances, a provider may include a modifier
line item to indicate that payment of both services in a comprehensive and component HCPCS
code pair is allowable.

Kentucky’s Implementation of Medicaid National Correct Coding Initiative Methodologies

In Kentucky, the State agency administers the Medicaid program. The State agency fully
implemented the Medicaid NCCI in the Kentucky Medicaid Management Information System
(KYMMIS), a computerized payment and information reporting system, effective December 16,
2010. The State agency contracted with its fiscal agent to implement the Medicaid NCCI. In a
letter dated October 1, 2010, 7 Kentucky’s Medicaid agency notified providers that it was
adopting the Medicaid NCCI to prevent the approval of payment for services that should not be
billed together. The letter stated that the Medicaid NCCI edits would be applied to all claims
submitted on or after October 1, 2010, excluding claims from certain providers who would be
added later. 8 Hospitals were not listed in the letter as excluded providers but provider types were
identified.

HOW WE CONDUCTED THIS REVIEW

From CMS’s Medicaid Statistical Information System (MSIS), we obtained approximately
5 million line items 9 that the State agency paid to hospitals from December 16, 2010, through
December 31, 2012, totaling approximately $593 million for outpatient services. We did not
review line items that did not include a HCPCS code; had a length of service of greater than 1
day; did not match to any other line item submitted for payment by the same provider for the
same beneficiary on the same date of service (i.e., line items with no code pair); matched to an
active Medicaid NCCI edit that had an effective date after the HCPCS service date or before the
Medicaid NCCI implementation date of December 16, 2010; or were submitted by a Critical
Access Hospital (CAH). Instead, to determine the line items to review, we created a code pair
data file by identifying (1) HCPCS codes paid on each line item and (2) other HCPCS codes that
were submitted on a previous, the same, or a later claim that contained the same (a) date of
service, (b) provider, and (c) beneficiary as the original line item.

In addition, after comparing the code pairs with the Medicaid NCCI edit tables, we removed line
items that (1) were subsequently identified as a CAH line item and (2) contained an allowable
modifier appropriately appended to one or both sides of a HCPCS code pair. From the


6
  Although the column 2 code is often a component of a more comprehensive column 1 code, this relationship is not
true for many edits. In those cases, the code pair represents two codes that should not be reported together, unless
an appropriate modifier is used.
7
    Kentucky Medicaid Provider Letter #A-81.
8
 The State agency told us that it began applying Medicaid NCCI edits on claims from all providers by
December 16, 2010. As such, we examined line items filed and processed by KYMMIS on or after that date.
9
    A line item represented an individual service billed as part of a claim for a Medicaid beneficiary.



Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                               3
remaining 28,078 line items, totaling $2,313,102 ($1,784,873 estimated Federal share), we
selected a random sample of 110 line items.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                                FINDINGS

The State agency did not pay some line items in accordance with its Medicaid NCCI
methodologies on claims hospitals submitted from December 16, 2010, through December 31,
2012. Overall, the State agency satisfied Federal and State requirements by implementing the
Medicaid NCCI into KYMMIS on schedule. However, the Medicaid NCCI edits did not prevent
erroneous payments. Of the 110 sampled line items, the State agency paid 102 in accordance
with the Medicaid NCCI. For the remaining 8, the Medicaid NCCI edits did not prevent the
payment for the component HCPCS code resulting in erroneous payments totaling $1,853
($1,439 Federal share).

Using our sample results, we estimated that the State agency made erroneous payments to
providers totaling $109,309 ($83,569 Federal share).

The erroneous payments occurred because the fiscal agent did not ensure that Medicaid NCCI
edits incorporated in KYMMIS approved only comprehensive HCPCS codes when they were
reported with component codes for the same date of service. The State agency acknowledged
that the Medicaid NCCI edits did not work as intended and that it paid line items in error.

THE STATE AGENCY PAID SOME LINE ITEMS THAT WERE NOT IN
ACCORDANCE WITH MEDICAID NATIONAL CORRECT CODING INITIATIVE
METHODOLOGIES

Federal law required that States incorporate Medicaid-compatible methodologies of the Medicare
NCCI edits into the MMIS by October 1, 2010. Kentucky fully implemented the Medicaid
NCCI edits into its MMIS and began editing claims against the Medicaid NCCI edit tables
effective for claims filed on or after December 16, 2010. (CMS had given an extension to the
October 1st deadline.) (See Appendix D for Federal and State Requirements.)

The State agency incorrectly paid some line items that were not in accordance with Medicaid
NCCI methodologies. Although the State agency satisfied Federal and State requirements by
implementing the Medicaid NCCI edits into its MMIS on schedule, the comprehensive and
component edits contained in the implemented Medicaid NCCI did not prevent erroneous
payments. Of the 110 sampled line items, the State agency paid 102 in accordance with the



Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                           4
Medicaid NCCI. For the remaining 8, the Medicaid NCCI edits did not prevent the payment for
the component HCPCS code resulting in erroneous payments totaling $1,853 ($1,439 Federal
share).

The following table shows the erroneous line items containing the component HCPCS codes
reported together with comprehensive HCPCS codes on the same claim for the same beneficiary
and date of service.

       Table: Examples of Comprehensive and Component Codes Reported Together

                                                                   Same
         Comprehensive Code          Component Code               Provider,
                                                                 Beneficiary,   Date of Service
           and Description           and Description
                                                                 and Date of
                                                                  Service?
                74177                       96374                   Yes          July 5, 2012
          CT scan of abdomen          Injection of drug
              and pelvis             or substance into a
                                       vein for therapy
                  92980                     96372                      Yes      March 15, 2012
          Insert Intracoronary          Injection into
                  Stent               tissue or muscle
                                         for therapy,
                                        diagnosis, or
                                          prevention
                74150                       72192                      Yes        January 12,
           CT scan abdomen             CT scan pelvis                                2011
                 74150                     72192                       Yes      January 1, 2011
           CT scan abdomen             CT scan pelvis
                 99218                     99284                       Yes       December 9,
          Hospital observation          Emergency                                   2010
           care typically 30          department visit,
                minutes               problem of high
                                          severity
                 87040                     87070                       Yes      March 1, 2012
         Bacterial blood culture      Bacterial culture
                 88385                     88384                       Yes      October 4, 2011
         Evaluation molecular            Evaluation
             probes 51-250            molecular probes
                                           11-50
                74150                      72192                       Yes      January 6, 2011
           CT scan abdomen             CT scan pelvis

The erroneous payments occurred because the fiscal agent did not ensure that Medicaid NCCI
edits incorporated in KYMMIS approved only comprehensive HCPCS codes when they were
reported with component codes for the same date of service. State agency officials


Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                              5
acknowledged that the Medicaid NCCI edits did not work as intended and that the State agency
paid the resulting line items in error.

ESTIMATE OF INCORRECT PAYMENTS

Using our sample results, we estimated that the State agency made erroneous payments to
providers totaling $109,309 ($83,569 Federal share).

                                       RECOMMENDATIONS

We recommend that the State agency:

    •	 refund erroneous payments totaling $83,569 to the Federal Government and

    •	 ensure that the Medicaid NCCI edits were properly incorporated and are functioning as
       intended in the KYMMIS.

       STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL

                            RESPONSE


State Agency Comments

In written comments on our draft report, the State agency disagreed with our first
recommendation to refund $83,569 to the Federal Government but concurred with our second
recommendation. The State agency acknowledged that four of the eight errors identified had
NCCI edits applied incorrectly. For the remaining four errors, the State agency said that NCCI
methodologies do not apply to these claims because, according to section 5.2 of the October 30,
2013, Center for Medicaid and CHIP Services Technical Guidance on State Implementation of
the Medicaid National Correct Coding Initiative Methodologies, claims that are paid on a flat
encounter/visit fee are not applicable to the NCCI methodologies The State agency also said
that the report did not provide the logic behind the claims sampling and how the overpayment
amount was estimated, so it could not concur with the amount to be refunded.

Office of Inspector General Response

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The State agency did not provide sufficient documentation to
support that the line items in question should have been paid based on a flat encounter/visit fee
schedule rather than a fee schedule based on the HCPCS. In fact, the fiscal agent agreed that the
line items should not have been paid because of applicable NCCI edits. During the entrance
conference on May 14, 2013, and during the exit conference on May 23, 2013, we explained to
the State agency our sampling methodology. As specified in both the body of the report and
Appendix B, the logic of selecting our sample was random and the estimate was calculated using




Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                              6
the Office of Inspector General, Office of Audit Services (OIG/OAS), statistical software. On
the basis of our audit results, we continue to recommend that the State agency refund $83,569 to
the Federal Government

The State agency comments are included in their entirety as Appendix E.




Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                               7
                        APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE


Our audit covered 28,078 line items 10 with payments totaling $2,313,102 ($1,784,873 estimated
Federal share) for claims submitted performed from December 16, 2010, through December 31,
2012. We randomly selected 110 line items totaling $12,117 for review. We limited our review
to determining whether Medicaid NCCI edits should have applied to the selected line items. We
did not review the overall internal control structure of the State agency or the Medicaid program.
Rather, we reviewed only those internal controls related to our objective. We did not question
the medical necessity of any of the services provided or their eligibility for Medicaid
reimbursement.

We conducted our audit from May through June 2013 and performed our fieldwork at the State
agency’s office in Frankfort, Kentucky.

METHODOLOGY

To accomplish our objective, we performed the following steps:

       •	 We reviewed Federal and State laws, regulations, and guidance and the State plan.

       •	 We held discussions with State agency officials to understand their policies and controls
          for Medicaid NCCI methodologies.

       •	 We conducted survey work at the State agency to understand how the Medicaid NCCI
          was implemented at hospitals within the State.

       •	 We identified a sampling frame of 28,078 line items with payments totaling $2,313,102
          ($1,784,873 estimated Federal share) by performing the following steps:

                o	 downloaded a database from CMS’s MSIS that contained 5,261,297 line items
                   with payments totaling $592,710,650 and

                o	 did not review 5,233,219 line items totaling $589,484,402.

       •	 We randomly selected for review 110 line items, totaling $12,117. For each line item,
          we:

                o	 used the State agency’s MMIS to determine whether Medicaid paid for both
                   HCPCS codes of the code pair,

                o	 determined whether the sampled items had been adjusted, and


10
     A line item represented an individual service billed as part of a claim for a Medicaid beneficiary.


Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                       8
                o determined whether the State agency had applied the Medicaid NCCI edits.

       •	 We conducted an accuracy test between the component code paid amounts in MSIS and
          KYMMIS.

       •	 We conducted a completeness test 11 between MSIS claim counts and KYMMIS data for
          outpatient files for the third quarter of Federal fiscal year 2011. 12

       •	 To determine the Federal Share of the erroneously paid line items, we:

                o obtained from the State agency the eligibility records for the erroneous line items,

                o	 identified the Medicaid Fund Codes 13 from the eligibility records,

                o	 obtained the quarterly FMAP rates for the Medicaid Fund Codes for the period of
                   our review,

                o	 matched the FMAP rates to the sampled line item using the line item’s service
                   date, and

                o	 quantified the Federal overpayment by multiplying the nonpayable (component)
                   HCPCS code paid amount by the applicable FMAP rate.

       •	 We discussed the results of our review with the State agency.

       •	 We estimated the unallowable Federal reimbursement paid in the sampling frame.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




11
  Testing for completeness means checking that both sets of records show all the accounts payable and state the
amounts owed accurately.
12
     The third quarter of Federal fiscal year 2011 is from April 1, 2011, through June 30, 2011.
13
  The Medicaid Fund Codes identifies the reason the beneficiary is eligible for the Medicaid program. The
applicable FMAP is determined on the basis of a beneficiary’s reason for Medicaid entitlement.


Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                              9
                APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consists of outpatient line items payments that the State agency made to hospitals
in Kentucky during December 16, 2010, through December 31, 2012.

SAMPLING FRAME

Using MSIS, the Region IV Advanced Audit Techniques Staff extracted a total of 5,261,297
outpatient line items totaling $592,710,650 in payments to hospitals from December 16, 2010,
through December 31, 2012. From this extraction, we removed 2,869,741 line items totaling
$353,773,440.

                               Line Items Removed From the Extraction

                                                                   No. of
                  Removed Line Items                            Line Items             Payment Amount
Initial Extraction                                              5,261,297              $592,710,650
Line items that did not include a HCPCS code                     789,591                 59,377,992
Line items for claims with a length of service
                                                                   2,698                   888,407
greater than 1 day
Single line items that did not match to any other
line items by provider, beneficiary, and date of                 1,112,358                182,778,599
service (i.e., line items with no code pair)
Line items matched to an active Medicaid NCCI
edit that had an effective date after the HCPCS
                                                                  834,034                 101,628,662
service date or prior to the Medicaid NCCI
implementation date of December 16, 2010
Line items submitted by a CAH                                     131,060                   9,099,780

     Total Line Items Removed from Extraction                    2,869,741                $353,773,440

     Total Remaining Line Items                                 2,391,556                 $238,937,210

After removing these line items, we identified a sampling frame of 28,078 line items with
payments totaling $2,313,102 ($1,784,873 estimated Federal share) by performing the following
steps:

     •   Using computer programming, we created a “coding pair data file” 14 that compared the
         remaining 2,391,556 line items with other line items for the same (a) date of service,
         (b) provider, and (c) beneficiary. This data match identified 7,519,902 code pairs.
14
  The coding pair data file contains two columns (comprehensive/component), and each row in the file contains two
HCPCS codes (code pairs). The number of code pairs identified exceeded the number of remaining line items
because the code pair data file contained all possible combinations of HCPCS codes that providers submitted for the
same beneficiary on the same date of service.


Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                            10
     •	 We matched the 7,519,902 code pairs in our coding pair data file to the Medicaid NCCI
        edit tables that were effective from December 16, 2010, 15 through December 31, 2012
        (active NCCI code pairs). This data match identified 63,761 pairs of line items in our
        coding pair data file that matched NCCI code pairs.

     •	 For each pair of line items that matched the Medicaid NCCI, we created one sampling
        unit consisting of the line item HCPCS code that is not payable (the component code of
        the code pairs) 16 and the dollars associated with it.

     •	 From the 63,761 line items, we removed (1) 28 line items identified as submitted by
        CAH and (2) 35,655 line items matched to a Medicaid NCCI edit with a modifier
        indicator of “1.”

SAMPLE UNIT

The sample unit was an individual Medicaid paid line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a total sample of 110 line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the OIG/OAS Statistical Software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the sampling frame from 1 through 28,078. After generating 110
random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS Statistical Software to estimate the amount of incorrect payments.


15
 We did not review line items with an adjudication date before the Medicaid NCCI implementation date of
December 16, 2010.
16
  The HCPCS code identified as not payable is in the component column of the edits tables. For example, a
hospital should not report a CT scan abdomen (comprehensive column) and a CT scan pelvis (component column)
together. In this case, the component code is included in the comprehensive code and should not be paid.



Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                      11
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES



                                   Sample Results: Total Amounts

      Number of                                                         Number of       Value of
                                         Sample         Value of
        Lines              Value                                        Incorrect      Incorrect
                                          Size          Sample
        Items                                                           Line Items     Line Items
         28,078          $2,313,102          110        $12,117               8         $1,853

                              Sample Results: Federal Share Amounts

                                                                                        Value of
                        Estimated                       Value of
      Number of                                                         Number of      Incorrect
                          Value          Sample          Sample
        Lines                                                           Incorrect      Line Items
                         (Federal         Size          (Federal
        Items                                                           Line Items      (Federal
                          Share)                         Share)
                                                                                         Share)
         28,078         $ 1,784,873         110          $9,136              8           $1,439


                             Estimated Value of Unallowable Claims
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                            Total Amount               Federal Share
                    Point estimate              $472,987                  $367,237
                    Lower limit                   109,309                    83,569
                    Upper limit                   836,664                  650,906




Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                12
                  APPENDIX D: FEDERAL AND STATE REQUIREMENTS


FEDERAL REQUIREMENTS


Pursuant to section 1903(r)(4) of the Act, on September 1, 2010, CMS issued State Medicaid
Director Letter 10-017, National Correct Coding Initiative, which:

    •	 identified and notified States of NCCI methodologies that are “compatible” with
       Medicaid claims filed in order to promote correct coding and control improper coding
       leading to inappropriate payment of claims under Medicaid,

    •	 notified States of the NCCI methodologies (or any successor initiative to promote correct
       coding and to control improper coding leading to inappropriate payment) that should be
       incorporated for claims filed with Medicaid for which no national correct coding
       initiative methodology has been established for Medicare, and

    •	 informed States how they must incorporate these methodologies for claims filed under
       Medicaid.

Section 1903(r)(1)(B)(iv) of the Act requires that States incorporate compatible methodologies
of the NCCI administered by the Secretary of Health and Human Services and such other
methodologies as the Secretary identifies effective for Medicaid claims filed on or after
October 1, 2010.

Pursuant to 42 CFR § 433.10, the Federal Government reimburses the State for its share (Federal
share) of State medical assistance expenditures according to a defined formula. However, the
States are responsible for recovering from providers any amount paid in excess of allowable
Medicaid amounts and for refunding the Federal share to CMS (42 CFR § 433.312).

STATE REQUIREMENTS

Although Kentucky does not have a State regulation regarding the implementation of the
Medicaid NCCI, it did implement the Medicaid NCCI by notifying providers through a provider
letter dated October 1, 2010, that it had incorporated Medicaid NCCI edits. The letter stated that
the Medicaid NCCI would be applied to all claims submitted on or after October 1, 2010,
excluding claims from certain providers who would be added later. Hospitals were not listed in
the letter as excluded providers. The State Medicaid agency told OIG auditors that it began
applying Medicaid NCCI edits on claims from all providers by December 16, 2010.




Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                             13
                               APPENDIX E: STATE AGENCY COMMENTS





                              CABINET FOR HEALTH AND FAMILY SERVICES
                                DEPARTMENT FOR MEDICAID SERVICES

             L. Beshear                         275 East Main Street, 6W-A               Audrey Tayse Haynes
     Governor                                       P: (502) 564-4321                    Secretary
                                                    F: (502) 564-0509
                                                   Frankfort, KY 40621
                                                     www.chfs.ky.gov
                                                                                         Lawrence Kissner
                                                                                         Commissioner

     November 8, 2013

     Lori S. Pilcher
     Regional Inspector General for Audit Services
     Office of Audit Services, Region IV
     61 Forsyth Street, SW, Suite 3T41
     Atlanta, GA 30303

     RE:     Draft Audit Report A-04-13-06166 and Letter Dated October 9, 2013

     Dear Ms. Pilcher:

     The Kentucky Department for Medicaid Services (OMS) would like to take this opportunity to thank
     you and your staff for conducting an audit of Kentucky's implementation of the National Correct
     Coding Initiative (NCCI) Methodologies. OMS was pleased the report indicated that OMS had overall
     satisfied the Federal and State requirements by implementing the Medicaid NCCI methodologies into
     the claims payment system on schedule. The report also indicated that 102 of the 110 sampled lines
     items were paid in accordance with the Medicaid NCCI, leaving only 8 claim lines that were
     processed incorrectly. Using the Office of Inspector General (OIG) sampling and extrapolation
     methods, the report indicated that an estimated $109,309 was incorrectly paid according to NCCI
     methodologies. While this error is small, OMS strives for 100% accuracy in all claims processing.

     In accordance with your request in the cover letter, OMS is providing comments for each
     recommendation in the report:

             Recommendation: "refund erroneous payments totaling $83,569 to the Federal Government"

             OMS Comments: OMS disagrees with this amount and further contends that only 4 of the 8
             claims identified by HHS-OIG had NCCI edits applied incorrectly. According to the "Center for
             Medicaid and CHIP Services Technical Guidance on State Implementation of the Medicaid
             National Correct Coding Initiative Methodologies", dated October 30, 2013, Section 5.2,
             claims that are paid on a "flat encounter/visit fee" are not applicable to the Medicaid NCCI
             methodologies. Therefore, claims 2010349063625, 2011010048013, 2011011051863, and




     KentuckyUnbridledSpirit.com                                             An Equal Opportunity Employer MIF/D




Kentucky Medicaid National Correct Coding Initiative (A-04-13-06166)                                               14
     Lori S. Pilcher
     November 8, 2013
     Page2


             2211026005112 that were Identified by HHS-OIG should not be included since these claims
             are flat fee claims. Furthermore, since only 4 claims appear to be in error and the report did
             not provide the logic behind the claims sampling and how the overpayment amount was
             "estimated", OMS cannot concur that the amount to be refunded is correct.

             Corrective Action: OMS normal business process is to identify each specific claim that paid
             inco rrectly. This process ensures that all incorrectly paid claims are identified for recovery
             and is more accurate than using the OIG estimates. Upon identification of the specific
             overpayments, the recovery process is started in accordance with state law. Federal funds
             are automatically returned upon recovery or within one year from identification, whichever
             occurs first.


             Recommendation: •ensure that the Medicaid NCCI edits were property incorporated and are
             functioning as intended in the KYMMIS ."

             OMS Comments: OMS concurs with th1s recommendation.

             Corrective Action: OMS implemented change order 19226 to correct the NCCI issue within
             the claims payment system.


     DMS is actively working to address the item identified in Audit Repvrt A-04-13-06166. DMS looks
     forward to working with the OIG in the future. Should you have additional comments or questions
     regarding our corrective actions, please contact me at 502-564-5472.




     s~~
     Veronica J.  CecH,~
     Division of Program Integrity
     Department for Medicaid Services


     Cc: 	         Lawrence Kissner, Commissioner
                   Neville Wise, Deputy Commissioner
                   Jennifer Harp, Director Medicaid Systems Management




Kentucky Medicaid National Correct Coding Initiative (A -04-13-061 66)                                         15
